Review of New York City's Efforts to Account for and Monitor Sub-Recipients' Use of Bio-terrorism Hospital Preparedness Program Funds,"(A-02-03-02013)
Department of Health
and Human Services
"Review of New York City's Efforts to Account for and Monitor Sub-recipients' Use of Bio-terrorism Hospital Preparedness
Program Funds," (A-02-03-02013)
November 21, 2003
Complete
Text of Report is available in PDF format (403 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Health Research, Incorporated (HRI) properly recorded, summarized
and reported bio-terrorism preparedness transactions in accordance with the terms and conditions of the cooperative agreement
with the Department of Health and Human Services (HHS), Health Resources and Services Administration (HRSA).  HRI
is the fiscal agent responsible for administering the Program grant on behalf of the New York City Department of Health
and Mental Hygiene (DOHMH).  Our review found that HRI accounted for Program funds in accordance with the terms and
conditions of the cooperative agreement with HRSA.  Specifically, HRI recorded, summarized and reported transactions
in discrete accounts established to account for bio-terrorism funding.  We also found that, while HRI and DOHMH implemented
controls and procedures to monitor sub-recipients expenditures of HRSA funds, they are not currently performing on-site
audits of sub-recipients.  However, HRI and DOHMH indicated that they plan to add an on-site audit component to their
monitoring procedures with funding from the Program.  We recommended that HRI and DOHMH continue to implement plans
to add an on-site audit component for monitoring sub-recipients and address problem areas, as they are identified.